 

WAIVER

SUPREME COURT OF THE UNITED STATES

21-5091

No.

Brian Dunkley [Shawn Phillips, Warden

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© lam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO 1am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | Se

Date: 8/13/20 |

. | :
(Type or print) Name Richard Davison Douglas |

© mr. © Ms. O mrs. O Miss
Firm loffice of the Tennessee Attomey General : - -
Address P.O. Box 20207 ; / |
City & State Nashville, TN - : - | Zip {s7202 ;

Phone (615) 397-0324 | Email Davey.douglas@ag.tn.gov / |

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Brian Dunkley, # 487273
1045 Horsehead Rd.

CC Pikeville, TN 37367
